USCA11 Case: 20-13858

Date Filed: 03/30/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-13858-A

BYRON MCCOLLUM,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Georgia

ORDER:
Byron McCollum’s motion for a certificate of appealability is DENIED because he has
failed to make a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2). McCollum’s motion for leave to proceed on appeal in forma pauperis is DENIED
AS MOOT.
/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

USCA11 Case: 20-13858

Date Filed: 05/19/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-13858-A

BYRON MCCOLLUM,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Georgia

Before: MARTIN and LUCK, Circuit Judges.
BY THE COURT:
Byron McCollum has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-1(c), of this Court’s March 30, 2021, order denying a certificate of appealability, and leave to
proceed on appeal in forma pauperis. Upon review, McCollum’s motion for reconsideration is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 1 of 17

IN THE UNITED STATES DISTRICT COURT
-J^R-gHE-M£OBLE-MggRKa-QE-6EQRG£a^
COLUMBUS DIVISION
*

BYRON T. MCCOLLUM,

★

Petitioner,
vs .

*

UNITED STATES OF AMERICA,

*

CASE NO. 4:15-CR-041 (CDL)
4:18-CV-197 (CDL)

*

Respondent.

ORDER
Pending before the Court is Petitioner's motion to vacate his
sentence under 28 U.S.C.

§ 2255

motion to vacate (ECF No. 110).
Petitioner

contends

several ways.
ineffective

that his

(ECF No.

106)

and his amended

In his motion and amended motion,
trial

counsel

was

ineffective

in

The United States Magistrate analyzed Petitioner's
assistance

Recommendation

which

claims

and

provided

a

issued

detailed

an

Order

description

of

and
the

procedural history and the trial evidence,

then concluded that

Petitioner

trial

ineffective.

failed

to

demonstrate

Petitioner

filed

that

voluminous

Magistrate's Order and Recommendation.

counsel

objections

to

was
the

After a de novo review of

the record in this case, the Order and Recommendation filed by the
United States Magistrate Judge on July 28, 2020 is hereby approved,
adopted, and made the Order of the Court, including the denial of
a certificate of appealability.

The Court considered Petitioner's

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 2 of 17

objections to the Order and Recommendation and finds that they
lack merit.

The Court elaborates on its rationale in the following

discussion.
DISCUSSION
"To prevail on a claim for ineffective assistance of counsel,
a movant must prove that counsel's performance was deficient and
that, but for counsel's deficient performance, the result of the
proceeding would have been different." Hollis v.
958

F. 3d

1120,

1122

(11th

Cir.

2020)

(per

United States,
curiam)

Strickland v. Washington, 466 U.S. 668, 687 (1984)).

(citing

"There is a

'strong presumption that counsel's conduct falls within the wide
range

of

reasonable

professional

Strickland, 466 U.S. at 687) .

assistance.

r n

Id.

(quoting

"To establish deficient performance,

a movant must prove

'that no competent counsel would have taken

the action that

.

.

.

counsel did take.

f rt

Id.

(quoting United

States v. Freixas, 332 F.3d 1314, 1319-20 (11th Cir. 2003)).
I.

Advice to Waive Right to Testify
Petitioner contends that trial counsel was ineffective when

she advised Petitioner to waive his right to testify.

Counsel

told Petitioner that the Government would introduce evidence of
his

prior

bank

robbery

convictions

examination if he chose to testify.
1997

conviction

to

impeach

him

on

cross-

Petitioner concedes that his

for grand theft motor vehicle would have been

admissible under Federal Rule of Evidence

2

609(a) (1) (B),

and he

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 3 of 17

asserts that he would have testified if only that conviction were
Petitioner argues that it is inconceivable that the

admitted.

Court would have permitted the Government to impeach him with his
1997 bank robbery conviction (for which he was released from prison
in 2010)

or his 1985 bank robbery conviction

(for which he was

released from prison in 1994 but remained on federal parole through
at least 2015) .
First,

Petitioner argues that the Government did not give

adequate notice that it intended to use the
conviction against him.

1985 bank robbery

But, the Government's Rule 404(b) notice

put Petitioner on notice that the Government intended to use the
conviction, and it provided the jurisdiction (Middle District of
Georgia), the case number (Case No. 85-245-COL), the charge (bank
robbery), the guilty plea date (April 25, 1985), and the sentencing
date

(September 12,

1985) .

i

Rule 404(b)

Notice 1,

ECF No.

32.

Thus, Petitioner had enough information about the 1985 conviction
to

contest

surprised

its
if

use

the

as

evidence,

Government

and he

sought

to

should not have been
impeach

him with

this

conviction, had he testified.
Second,
determined

Petitioner contends that the Court would not have
that

the

probative

value

i

of

the

1985

conviction

The Court excluded the 1985 bank robbery conviction under Rule 404 (b)
but did not decide whether the 1985 bank robbery conviction could be
admitted under Rule 609.

3

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 4 of 17

substantially

outweighed

its

prejudicial

effect.

The

Court

suggested the opposite at sentencing when Petitioner raised this
issue.

The Court told Petitioner:

[TJhere were plenty of good reasons for you not to
testify
because,
although
your
attorney
did
an
outstanding job prior to trial keeping out your previous
criminal history -- which included several previous bank
robberies
she was able to exclude that from the trial
- had you testified, it is clear that those felony
convictions would have been admitted, and the jury would
have heard at trial that you were a serial bank robber
before you committed this offense. So at trial it made
complete sense for you to make the decision on your own
not to testify. And the record, I think, will be clear
on that.
Sentencing Tr.

23:5-19,

ECF No.

79.

Moreover,

even if it

is

possible that the. Court would not have permitted the Government to
impeach Petitioner with the 1985 bank robbery conviction, the Court
likely would have admitted the 1997 convictions for bank robbery
and grand

theft

609(a)(1)(B)

motor vehicle

under

Rule

Rule

609(a)(1)(B).

requires that a felony conviction be "admitted in a

criminal case in which the witness is a defendant, if the probative
value of the evidence outweighs its prejudicial effect to that
defendant."

Here,

Petitioner

argues

that

his

testimony

was

critical to his defense because the Government's case against him
was based on circumstantial evidence and Petitioner's testimony
would

have

negated

each

of

the

circumstantial

facts.

Thus,

Petitioner's credibility would have been vital, and the Government
would have a substantial need for impeachment.

4

The Court likely

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 5 of 17

would have admitted both the 1997 convictions,

and Petitioner's

counsel was not ineffective for telling her client so.
II.

Failure to Object to DNA Expert's Testimony
Petitioner argues that trial counsel was ineffective because

she failed to object to the testimony of the Government's DNA
expert, Brandon McCollum.

Brandon McCollum, a forensic examiner

in the FBI's DNA Casework Unit, opined that there was "moderately
strong support" that Petitioner was a contributor of the DNA on
"item 2" from a Camaro that was used in the bank robbery that was
at issue in the trial; it was 170 times more likely that this DNA
came from Petitioner as opposed to a random person.
vol. ii 244:22-245:4, ECF No. 75.
Brandon McCollum's

Trial Tr.

Petitioner does not challenge

qualifications,

but he does

assert

that

if

counsel had filed a motion to exclude the testimony under Federal
Rule of Evidence
Petitioner

also

702,
argues

the testimony would have been excluded.
that

the

DNA

expert's

testimony

was

unreliable and thus had very little probative value, so it would
have been excluded under Federal Rule of Evidence 403.
First, Petitioner believes that because the DNA expert could
not determine the sex of the person whose DNA was on item 2, there
is no way the DNA expert could offer any reliable opinion about
the DNA evidence.

Second, Petitioner contends that the Court would

have excluded the testimony for the same reasons it excluded DNA
evidence in United States v. Natson,

5

469 F. Supp. 2d 1253

(M.D.

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 6 of 17

Ga. 2007).

This argument compares apples to oranges.

the issue was paternity of a fetus.

In Natson,

The DNA expert in Natson

testified that there was a 96.3% chance that the defendant was the
father

of

the

fetus,

but

he

also

said

that

the

statistical

probability of paternity must be 99.99% for the DNA scientific
community to consider a DNA test to show a paternity match.

Thus,

the DNA evidence did not establish that the defendant was the
father of the fetus under prevailing scientific standards, and the
evidence was excluded.

Here, the issue was the likelihood that

DNA found on the Camaro came from Petitioner as opposed to a random
person, and what that means.
If counsel had filed a motion to challenge the DNA expert's
opinion that a likelihood ratio of 170 provides moderately strong
support that Petitioner contributed the DNA on item 2, a hearing
on that motion would have revealed something that the DNA expert
stated in his report:

based on the "standards published by the

Association of Forensic Science Providers," a likelihood ratio
between

100

inclusion.

and

990

provides

"moderately

strong

support"

FBI Laboratory Report 4, ECF No. 106-2 at 54.

for

Since

there is evidence that the relevant scientific community considers
a likelihood ratio of 170 to be "moderately strong support" for
inclusion,

the evidence would not have been excluded under Rule

702 or Rule 403.

Accordingly,

counsel was not ineffective for

failing to file a motion to exclude the DNA expert's testimony.

6

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 7 of 17

III. Cross-Examination of Brandon McCollum
Petitioner contends that counsel did not adequately prepare
for trial with regard to DNA evidence and that as a result her
cross-examination
expert,

was

of

Brandon

deficient.

McCollum,

the

Petitioner also

Government's

contends

that

DNA

counsel

For the reasons

admitted that Petitioner's DNA was on the Camaro.

set forth in the Magistrate's Order and Recommendation, the Court
finds that counsel did not admit that Petitioner's DNA appeared on
the Camaro.

The Court further agrees with the Magistrate that

while counsel did not ask all the questions that Petitioner thinks
she

should

have,

counsel's

questioning

of

Brandon

McCollum

constituted sound trial strategy and was not unreasonable under
prevailing professional norms.

Thus, counsel was not ineffective

based on her cross-examination of Brandon McCollum.
IV.

Cross-Examination of William Mitchell
Petitioner

contends

that

counsel

did not

properly

cross-

examine William Mitchell because she failed to impeach him with a
prior inconsistent statement.

At trial, Mitchell testified that

Michael Hall and Petitioner came to his house in late May of 2015
and that a hockey mask was hanging from the rearview mirror of
Hall's blue van.

Mitchell's prior statement was that he saw the

hockey mask in the blue van on June 3 and 4, 2015, which Petitioner
contends

is

impossible

beginning June

1,

2015.

because

the

van

Petitioner's

7

was

in

a

repair

shop

counsel did not impeach

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 8 of 17

Mitchell with his prior inconsistent statement about the date he
allegedly saw Petitioner with Hall in the blue van, but she did
impeach

Mitchell's

testimony

identification

that Mitchell's

of

Petitioner

prior description

of

by

eliciting

the person who

accompanied Hall in late May of 2015 did not match Petitioner's
appearance,

that Mitchell has blurry vision,

never spoke with Petitioner.

and that Mitchell

The Court agrees with the Magistrate

that counsel's questioning of William Mitchell constituted sound
trial

strategy

and

professional norms.

was

not

unreasonable

under

prevailing

The Court also agrees with the Magistrate

that Petitioner failed to show prejudice resulting from counsel's
failure to impeach Mitchell with his prior inconsistent statement.
Accordingly, counsel was not ineffective when she failed to impeach
Mitchell with the prior inconsistent statement.
V.

"Newly Discovered Evidence" About William Mitchell
Petitioner claims that during a lunch break in his trial, he

was held in the U.S. Marshal lockup and that Michael Hall was in
the next holding cell.

Petitioner asserts that Hall, who did not

testify at trial, told him that William Mitchell helped plan the
Regions Bank robbery, that Mitchell was able to buy a handgun for
Hall,

and that when Hall picked up the firearm from Mitchell,

Joseph White was with him.

Petitioner suggests that this evidence

shows that Mitchell lied about Petitioner's participation in the
robbery to avoid prosecution himself.

8

Petitioner did not share

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 9 of 17

this information with his lawyer until after the trial.

He also

did not raise this issue on direct appeal.
The

Magistrate

construed

this

claim

as

an

ineffective

assistance of counsel claim and recommended rejecting it because
it is unclear what counsel

should have done differently given

Petitioner's failure to give her the information.
that

Petitioner

failed to

show that

The Court agrees

counsel's performance was

deficient, so to the extent Petitioner is attempting to assert an
ineffective assistance of counsel claim based on counsel's failure
to discover or question anyone about this new evidence, it fails.
Petitioner contends that he is not advancing an ineffective
assistance claim.
claim.

Rather, he asserts that this is a "new evidence"

The Court is not convinced that this claim is cognizable

under § 2255.

The habeas statute "states four grounds upon which

such relief may be claimed:

(1)

'that the sentence was imposed in

violation of the Constitution or laws of the United States,'

(2)

'that the court was without jurisdiction to impose such sentence,'
(3)

'that the sentence was in excess of the maximum authorized by

law,' and (4) that the sentence 'is otherwise subject to collateral
attack.

t tf

Hill

v.

United States,

(quoting 28 U.S.C. § 2255(a)).

368 U.S.

424,

426-27

(1962)

"Claims of actual innocence based

on newly discovered evidence have never been held to state a ground
for federal habeas

relief absent an independent constitutional

violation occurring in the underlying . .

9

. criminal proceeding."

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 10 of 17

Herrera v.
U.S.C.

Collins,

§ 2255

506 U.S. 390,

400

(1993).

"Relief under 28

'is reserved for transgressions of constitutional

rights and for that narrow compass of other injury that could not
have been raised on direct appeal and would, if condoned, result
in a complete miscarriage of justice.

f n

Richards v. United States,

837 F.2d 965, 966 (11th Cir. 1988)

(quoting United States v. Capua,

656

Unit

F. 2d

1033,

Petitioner

did

establishes

a

1037
not

(5th

Cir.

suggest

jurisdictional

that
or

A

the

Sept.

1981)).

Here,

"new

evidence"

issue

constitutional

claim.

And

although Petitioner knew about the evidence at trial and thus could
have the raised the issue at that time or on direct appeal, he did
not do so.

For these reasons, the Court denies Petitioner's § 2255

petition on this ground.
VI.

Cross-Examination of Deputy Baldwin and Probation Officer
Minnelli, and the Failure to Call a U.S. Marshal
Petitioner

argues

that

counsel

should

have

elicited

additional testimony from two law enforcement witnesses on crossexamination and that she should have called a U.S. Marshal from
Florida

to

rebut

the

Government's

suggestion

that he

fled to

Florida to avoid arrest for the Columbus, Georgia bank robbery.
First,

Petitioner asserts that counsel did not adequately

cross-examine a police officer named Robert Baldwin, who detained
Petitioner on suspicion of driving under the influence.
examination,

On direct

Baldwin testified that Petitioner gave him a fake

10

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 11 of 17

name.

On

cross-examination,

Petitioner's

counsel

elicited

testimony that Petitioner did give Baldwin his real name

(after

initially lying) and that Baldwin did not charge Petitioner with
a crime.

Petitioner claims that counsel's cross-examination was

deficient because she did not elicit testimony that Petitioner
ultimately gave Baldwin his correct phone number and motel address.
The Magistrate concluded that Petitioner failed to demonstrate
that counsel's cross-examination of Baldwin was deficient.
Court agrees.

The

Even if Baldwin would have testified that Petitioner

provided him with a phone number and address, and if other evidence
would have demonstrated that the phone number and address were
correct,

counsel did elicit testimony that Petitioner told the

truth about his identity after initially lying.

She just did not

pursue this path further, and the Court cannot conclude that this
decision was

unreasonable

under prevailing professional

Even if counsel's performance was deficient.

norms.

And, the Court agrees

with the Magistrate that Petitioner did not demonstrate that it
was prejudicial for counsel to fail to follow up and seek evidence
to support Petitioner's argument that he did not flee or attempt
to evade arrest.

Thus, counsel was not ineffective when she cross-

examined Baldwin.

11

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 12 of 17

Second,

Petitioner asserts that counsel did not adequately

cross-examine his probation officer,

John Minnelli.2

Petitioner

argues that when he checked in with Minnelli on June 23, 2015, he
told Minnelli that he was in Florida, gave Minnelli his contact
information, and told Minnelli that he planned to get a duplicate
Florida driver's license the next day before returning to West
Palm Beach,

Florida.

Counsel asked Minnelli

if he spoke with

Petitioner in the "summer of last year" and Minnelli said that he
did.

Trial Tr. vol. iii 216:19-22, ECF No. 76.

Counsel asked if

he mentioned that he was on his way to renew his Florida driver's
license

and Minnelli

responded

that

he

could not

recall

this

Petitioner suspects that Minnelli may have taken

detail.

Id.

detailed

notes

regarding

the

telephone

call,

and

Petitioner

believes those notes may have included Petitioner's explanation
that he was in Florida to obtain a duplicate driver's license.
Petitioner asserts that Minnelli

should have been required to

produce any notes he might have made regarding the June 23, 2015
phone call.

The Magistrate correctly concluded that all of this

is speculative, and that counsel pursued the line of questioning
regarding the

duplicate

driver's

license but Minnelli

did not

2 To prevent the jury from learning that Minnelli was Petitioner's
probation officer, Minnelli was presented as someone who knew Petitioner
from Florida.

12

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 13 of 17

remember.

The Court finds that Petitioner failed to show that

counsel was deficient in her cross-examination of Minnelli.
Third, Petitioner argues that counsel should have found and
called

a

U.S.

Marshal

to

testify

about

Petitioner's

arrest.

Petitioner contends that the U.S. Marshal would have been able to
testify that Petitioner was arrested at the motel and room number
that Petitioner had provided to Minnelli and Baldwin and that he
had a duplicate Florida driver's license that was issued on June
24,
that

2015.

This evidence,

Petitioner asserts,

Petitioner was not trying to

would have shown

flee or avoid arrest.

But

Petitioner did not establish that he was prejudiced by counsel's
failure to exhaust all avenues with regard to Petitioner's argument
that he was not

in

flight when he went to Florida.

Even if

Petitioner was not in flight when he was in Florida, the jury had
evidence that Petitioner helped Hall procure vehicles that were
used in the robbery, that Petitioner purchased products to remove
dye from the stolen money,

and that Petitioner arrived at the

Enterprise car rental location where Hall was arrested with stolen
money but left the scene when he learned that Hall had been taken
to the back.

Moreover,

counsel may have had other legitimate

reasons to avoid calling as a witness a U.S. Marshal who arrested
Petitioner on a parole violation warrant.

For these reasons, the

Court finds that Petitioner did not establish that counsel was

13

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 14 of 17

ineffective when she failed to call one of Petitioner's arresting
officers as a witness.
VII. Other Grounds for Habeas Relief
Petitioner's motion to vacate contained three other grounds
for habeas relief based on ineffective assistance of counsel, and
the Magistrate concluded that Petitioner had not shown deficient
performance or prejudice.

Order & Recommendation 36-43, EOF No.

Petitioner did not object to the Magistrate's recommendations

156.

on these three grounds; he contends that the Magistrate did not
give him enough time to file his objections because the Magistrate
did not grant Petitioner's request for a 60-day extension.
ruling

on

the

extension

request,

the

Magistrate

In

noted -that

Petitioner had filed a petition for a writ of mandamus with the
Eleventh Circuit Court of Appeals, asking the Court of Appeals to
direct the Court to rule on his motion to vacate and amended motion
to vacate.

The Court of Appeals held the Petitioner's mandamus

petition in abeyance and gave the Court sixty days, until September
11,

2020,

to rule on Petitioner's motion to vacate and amended

motion to vacate.

11th Cir. Order (July 13, 2020), ECF No. 155.

Accordingly,, to ensure that Petitioner had adequate time to file
his objections while preserving enough time for the undersigned to
receive and consider Petitioner's objections and comply with the
Eleventh Circuit's deadline, the Magistrate gave Petitioner seven
extra

days

from the

date

of

the

14

extension

order

to

file

his

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 15 of 17

objections,

which

had

the

effect

of

extending

the

objection

deadline to August 25, 2020—fourteen days after the original August
11, 2020 objection deadline.

See generally Order granting in part

and denying in part Mot. for Extension of Time, ECF No. 159.
The Court reviewed Petitioner's motion to vacate with regard
to grounds VII, VIII,

and IX,

along with the Magistrate's Order
For Ground VII, Petitioner

and Recommendation on those grounds.

contends that counsel ineffectively handled evidence concerning a
Cadillac

that

was

found

abandoned

in

Macon

in

August

2015.

Petitioner contends that his Cadillac was stolen on June 6, 2015.
He further argues it should have been clear to counsel that the
Cadillac found in Macon was not his,

though Petitioner concedes

that the abandoned Cadillac had his vehicle's VIN plates.
asserts

that

counsel

should

have

conducted

investigation

and pointed out

that

described

gold

Cadillac

as

Petitioner
deputy

more

Cadillac.

while

contends

that

thoroughly
For

Recommendation,

the

his

counsel
about

reasons

the

a

set

detailed

abandoned Cadillac was
was

silver/gray.

should have

his

more

He

discovery
forth

And

cross-examined a
of

in

the
the

abandoned
Order

and

Petitioner failed to establish that counsel was

deficient in her investigation of the abandoned Cadillac or her
cross-examination

of

Deputy

Pecorilli,

and

he

demonstrate prejudice resulting from any deficiency.

15

failed

to

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 16 of 17

For Ground VIII,

Petitioner

asserts

that

counsel

did not

conduct an adequate investigation to rebut the trial testimony of
Brandon Turner,
Petitioner
robbery.

Petitioner's former cellmate who testified that

confessed that he participated in

the Regions

Bank

Counsel informed Petitioner before trial that Turner was

expected to testify and subpoenaed one of the witnesses Petitioner
suggested to rebut Turner's testimony.

That witness,

Clarence

Martin, testified at trial that Turner told him that Turner planned
to lie at Petitioner's trial in order to receive a reduced sentence
and that Turner planned to falsely testify that Petitioner had
admitted to robbing the Regions Bank.
that Petitioner maintained his
Bank robbery.

Martin further testified

innocence regarding the Regions

Petitioner argues, though, that counsel should have

located more witnesses from his jail pod who might have testified
that they learned about details of the robbery from the television
news and from another inmate named Dyrell Davis, who was privy to
some of the details because he was in the courtroom with Michael
Hall

when

his

case

was

discussed

by

a

federal

prosecutor.

Petitioner further asserts that counsel should have cross-examined
Turner on whether he had access to Petitioner's paperwork while
Petitioner was not in their communal
theory that
collect

another

information

inmate
about

cell and on Petitioner's

named Nimesh
Petitioner's

Desai
case

paid Turner

and

then

against Petitioner in exchange for a reduced sentence.

16

to

testify
For the

Case 4:15-cr-00041-CDL-MSH Document 161 Filed 09/08/20 Page 17 of 17

reasons

set

forth

in

the Order and Recommendation,

Petitioner

failed to establish that counsel was deficient in her investigation
of

Petitioner's

claim that

Turner

in her

fabricated evidence,

examination of Martin, or in her cross-examination of Turner.
For

Ground

IX,

Petitioner

argues

that

counsel

provided

ineffective assistance when she failed in closing arguments to
correct the prosecutor's misstatements of the evidence regarding
what happened at the Enterprise car rental store, when she did not
clarify evidence related to the abandoned gold Cadillac, and when
she appeared to admit to the jury that Petitioner's DNA was found
on the stolen red Camaro.

The Magistrate correctly concluded that

counsel did not admit that Petitioner's DNA was on the Camaro.
And,

for the reasons set forth in the Order and Recommendation,

Petitioner

failed

to

establish

that

counsel

was

otherwise

deficient in her closing argument.
CONCLUSION
For the reasons set forth above, the Order and Recommendation
filed by the United States Magistrate Judge on July 28, 2020 is
hereby

approved,

adopted,

and

made

the

Order

of

the

Court,

including the denial of a certificate of appealability.
IT IS SO ORDERED, this 8th day of September, 2020.
s/Clay D. Land
CLAY D. LAND
U.S. DISTRICT COURT JUDGE
MIDDLE DISTRICT OF GEORGIA

17

